                         Office of Inspector General
                         Legal Services Corporation




3333 K Street, NW~ 3rd Floor
Washingto n, DC 20007-35 58
202.295.1660 (p) 202.337.66 16 (f)
www.oig.lsc.gov




                                                       MEMORANDUM


          To:                 Lora Rath , Acting Director
                              Office of Compliance and Enforcement

          From :              Jeffrey E.SChan~    ,..---.,,/}
                               InspectorGener~~ ~.~~
          Date:               February 27 , 2012

         Subject:             Examination of Expenditures Incurred for the Performance of TIG Grants
                              Awarded to Center for Arkansas Legal Services


         Attached is our audit report on expenditures of $240,000 reported by the Center for
         Arkansas Legal Services (CALS) for the performance of seven TIG grants. The OIG
         concluded that $82 ,300 of personnel costs did not have adequate documentation as
         required by TIG grant assurances.

         TIG grant assurances reference LSC regulations and guidelines that describe
         documentation requirements for supporting costs . The accurate determination of TIG
         project costs is important since TIG grant assurances also require that funds provided in
         excess of project costs be returned to LSC or reprogrammed to other projects with the
         approval of LSC .

         CALS written response to the OIG results (Appendix II of the audit report) stated among
         other th ings that LSC management did not provide instructions requiring that labor
         hours were to be used to distribute personnel expenses to TIG grants and that the
         questioned personnel costs were fully paid with LSC funds . The OIG position is that the
         grant assurances provide references to specific record-keeping instructions and that the
         source of funds does not override the need to document the level of effort spent on the
         projects . Without knowing actual TIG project costs , LSC management is unable to
         effectively manage the funding for TIG projects.




                                                                                         =i!:LSC
                                                                                         II    America"s r ...nc, fo r £qual Justice
The report includes a questioned cost referral to the Office of Compliance and
Enforcement. Please contact Ronald Merryman at (202) 295-1663 or via e-mail at
RM@oig .lsc.gov if you have any questions.


Attachment

cc:    James Sandman, President
       Janet LaBella, Director, Office of Program Performance
             Examination of Expenditures Incurred for the Performance
            of TIG Grants awarded to Center for Arkansas Legal Services
                                                                  RNO: 604061
                                                               Report No. AU 12-01

The Legal Services Corporation (LSC) Office of Inspector General (OIG) conducted an
examination of expenditures incurred for the performance of Technology Initiative
Grants (TIG grants) awarded to the Center for Arkansas Legal Services (CALS). The
objectives of the examination were to determine whether the TIG grant expenditures for
seven CALS TIG grants that closed during the period of January 1, 2009 through
March 31, 2011, were allowable and whether the stated purposes of the TIG grants
were achieved. The examination’s background and its scope and methodology are
discussed in Appendix I.

                                                                   RESULTS

The OIG concluded that the stated purposes of the seven TIG grants appeared to have
been met. However, the OIG also concluded that for four grants, $82,300 of personnel
and fringe benefit expenditures were not supported by adequate documentation and are
thereby considered questioned costs. OIG conclusions are based on a review of
applicable CALS books, records, internal controls, TIG grant assurances and
requirements, applicable regulations and guidance, and OMB Circular A-122, Cost
Principles for Nonprofit Organizations.

The following chart lists the combined total expenditures of all seven grants, by budget
category, as reported to the OIG by CALS on August 1, 2011. The chart also includes
the amounts questioned by the OIG for each budget category.
 

                                                                    TIG Expenditures      Questioned
                  Line-Item                                              (Claim)            Costs
                  Personnel                                                    $70,4251        $65,925
                  Fringe Benefits                                               $16,375        $16,375
                  Software                                                       $2,700
                  Contracts                                                    $150,500
                           Total All                                          $240,0002        $82,300



                                                            
1
   Although CALS listed $70,425 as personnel costs in the information provided, the OIG determined that $65,925 
should be considered personnel costs and $4,500 non‐personnel costs. 
2
   CALS did not include the $4,100 that was part of the grants received but withheld by LSC headquarters.  The 
money was used by LSC Headquarters to fund one grantee employee to attend LSC’s annual TIG conference.  LSC 
Headquarters paid, up to the amount withheld, for the individual’s airfare, hotel room conference fee, and 
provided at least two meals for each day of the conference.  Any unused funds provided for TIG conference 
purposes reverted to LSC for future TIG funding.  CALS could not use these funds for any other purposes. 

                                                                        1 
 
Personnel costs charged to TIG grant numbers 06313, 07315, 08313, and 08314 were
not based on time distribution records as required by the grants. Time distribution
records identify the total time actually spent by all individuals who charge time directly to
the TIG grants.

TIG grant assurances for the CALS TIG grants require that LSC rules, regulations,
guidelines, and directives are followed.        Pursuant to LSC regulation 45 CFR
§ 1630.3 (d), salary and wages charged directly to Corporation grants and contracts
must be supported by personnel activity reports. Guidance provided in the LSC
Accounting Guide for LSC Recipients indicates that labor hours distributed to projects,
contracts, and grants should be based on time distribution records that identify the total
time actually spent by all individuals who charge time directly to projects, contracts, and
grants. Lastly, OMB Circular A-122, Cost Principles for Nonprofits Organizations, which
is referenced in the LSC regulations, states that the distribution of salaries and wages to
awards must be supported by personnel activity reports.
Based on discussions with the CALS Business Manager and review of the supporting
documentation provided, the grantee allocated personnel costs based on the amounts
budgeted. CALS management stated that it did not track the employee time that was
directly charged to LSC because LSC management did not specifically require them to
do so.
Without time distribution records or other acceptable documentation to support the
charges, the OIG is unable to determine how much time was spent on these TIG grants.
Consequently, the OIG questions $82,300 in personnel costs as an unsupported cost
and, pursuant to 45 CFR Part 1630, is referring these costs to the Office of Compliance
and Enforcement for review and action.


                                 GRANTEE COMMENTS

The OIG provided a written draft of its review results to CALS on November 30, 2011.
CALS’ written response is included at Appendix II and summarized below.

The CALS response indicated that the OIG based its decision to question costs on the
TIG grant assurances. However, the response continued that LSC management never
provided CALS with written instructions showing that labor hours were to be used to
distribute expenses to its TIG grants based on personnel activity reports or timekeeping.

The CALS response also indicated that one employee was assigned to handle the
duties to meet the requirements of the TIG grants and provided the following
assumptions about the accounting for this individual:

•   All funds for paying this employee came from one single funding source, LSC;

•   The payment structure for the TIG grants was milestone driven, completely different
    from the way basic field grants were distributed;

                                             2 
 
•   The employee was not employed as an attorney or paralegal and was not required
    to keep detailed time records under [45 CFR] Part 1635;

•   The employee personally performed the duties and requirements that were directly
    related to the achievement of the objectives of the TIG grants.


                    OIG EVALUATION OF GRANTEE COMMENTS
Regarding CALS comments about the lack of written instructions provided by LSC
management, TIG grant assurances require compliance with LSC regulations,
guidelines, and directives that provide specific written instructions about time-keeping
requirements. Further, CALS should have known that it needed to track project costs in
order to comply with TIG grant assurances requiring grantees to return or seek
reprogramming approval for funds provided in excess of project costs.
Regarding CALS comments about accounting for the employee assigned to handle the
duties to meet TIG grant requirements, the OIG notes the following:

       Regardless of the source of funds for this employee’s salary, the TIG grant
        assurances require that the employee’s level of effort on the TIG projects be
        tracked. Without adequate timekeeping records LSC has no assurance that the
        employee only worked on TIG projects.

       While the payment structure was milestone driven, it does not eliminate the
        requirement to keep records on project costs.

       While the employee was not employed as an attorney and was not required to
        keep detailed records under 45 CFR Part 1635, the employee was required to
        keep personnel activity reports under, 45 CFR § 1630.3(d), the LSC Accounting
        Guide for LSC Recipients, and OMB Circular A-122, Cost Principles for Nonprofit
        Organizations as described in the report.

       While the stated purposes of the grants appeared to have been met, CALS did
        not maintain records supporting the employee’s time and we could not conclude
        on the level of effort that was spent on the TIG grants.




                                           3 
 
                      CONCLUSION AND RECOMMENDATION

TIG grantees are required to return funds provided in excess of project costs or seek
approval for reprogramming the funds. Without TIG grantees maintaining the required
records on actual program costs, they cannot comply with the requirement. CALS has
reported that it has now developed an activity report for employee’s direct time. For TIG
grants 06313, 07315, 08313 and 08314, the OIG could not verify that personnel and
fringe benefit costs in the amount of $82,300 were in fact expended on the TIG grants,
and therefore considers them questioned costs.

This report contains no recommendations requiring LSC management response. LSC
current regulations state the requirement to maintain adequate records of expenditures
of LSC funds. For fiscal years 2010 and 2011, LSC has instructed TIG recipients to
submit final expenditures on the project and to consult LSC’s Accounting Guide for LSC
Recipients, 2010 Edition, for guidance on financial accounting and reporting standards.
Through this report, the OIG is referring $82,300 of questioned costs to the Office of
Compliance and Enforcement for review in accordance with 45 CFR § 1630.7.




                                           4 
 
                                                                         APPENDIX I


                                   BACKGROUND

During a recent audit of LSC Headquarters’ management of the TIG program, the OIG
noted that although LSC required TIG recipients to provide periodic reports about the
grants, LSC did not normally maintain information on the actual expenditures incurred in
performing the TIG grants. As a result, the OIG planned audits of individual TIG grants
to examine expenditures incurred in performing the grants.
The OIG requested specific financial information from recipients on all terminated TIG
grants, regardless of termination date, as well as all TIG grants that were completed
during the period January 1, 2009 through March 31, 2011. All TIG recipients reported
grant expenditures by budget line item. CALS reported expenditures for seven closed
TIG grants: 06313, 07313, 07315, 08313, 08314, 08316, and 09313. The total
expenditures were $240,000.
The amount and purpose of each grant is as follows:

         TIG 06313 was awarded in the amount of $27,600 for continuing the process
          of content population onto the public and advocate portions of Arkansas’
          Statewide website.

         TIG 07313 was awarded in the amount of $70,000 for a follow-on online
          conferencing grant for CALS to manage, administer, promote, and support
          online conferencing for LSC funded programs, and to introduce online
          conferencing to the court systems.

         TIG 07315 was awarded in the amount of $10,000 to implement real time
          chat-based assistance for the Arkansas statewide website. The project
          assists Arkansas statewide website visitors in utilizing the public and
          advocate portions of the Arkansas statewide website by allowing visitors to
          ask a remotely located website Specialist for help with finding and using
          online resources.

         TIG 08313 was awarded in the amount of $35,000 to continue development
          of document assembly forms. The document assembly forms are used by
          pro se litigants and advocates to prepare automated standardized court
          filings.

         TIG 08314 was awarded in the amount of $15,000 to provide multimedia self-
          help content through streaming video hosted by YouTube with video links
          embedded on the Arkansas statewide website.




                                           5 
 
           TIG 08316 was awarded in the amount of $50,000 as a follow-on online web
            conferencing grant for CALS to provide an online web conferencing system
            for the poverty law community to help programs conduct online meetings and
            trainings.

           TIG 09313 was awarded in the amount of $36,500 as a follow-on online web
            conferencing grant for CALS to provide an online web conferencing system
            for the poverty law community. This grant continues the support and training
            mechanisms in place for LSC programs.



                             SCOPE AND METHODOLOGY

The audit was conducted in accordance with Government Auditing Standards for an
examination-level attestation engagement. As such the audit examined evidence
supporting the grantee’s compliance with grant provisions related to expenditures,
obtained an understanding of internal controls that were material to the grantee’s
compliance with the terms and conditions of the grant, and performed other procedures
necessary to evaluate the grants. The review was limited in scope and not sufficient for
expressing an opinion on the entire system of grantee internal controls over financial
operations or compliance with LSC regulations.

To accomplish the objectives of the examination the following steps were performed:

       The appropriateness of expenditures and the existence of adequate supporting
        documentation were reviewed for each TIG grant. Since there were few
        expenditures for each TIG grant, we reviewed 100 percent of the expenditures.
        To assess the appropriateness of grantee expenditures, we reviewed invoices,
        contracts, and employee time records.        The appropriateness of grantee
        expenditures was evaluated on the basis of the grant agreements, applicable
        laws and regulations, and LSC policy guidance.

       Internal controls over personnel and contracting expenses were reviewed and
        tested, which included a review of relevant grantee policies and procedures.
        Grantee officials were interviewed to obtain an understanding of the internal
        control framework, and grantee management and staff were interviewed as to
        their knowledge and understanding of the processes in place.
         
       To determine whether the stated purpose of the TIG grants was achieved, we
        held discussions with grantee staff and received demonstrations on grant
        outcomes.




                                            6 
 
                                                                                          APPENDIX"

                                            Founded 1965

                 CENTER FOR ARKANSAS LEGAL SERVICES
                                      EqualJusticeFor All


January 9,2012



Mr. Richard Adkins
Office of Inspector General
Legal Services Corporation
3333 K Street, NW, 3,d Floor
Washington, D.C. 2007-3558

Recipient Name:        Center for Arkansas Legal Services
Recipient Number:      604061

Re:     Response to orG Audit ofTIG Expenditures

This is the response of the Center for Arkansas Legal Services (CALS) to the Audit ofTIG
Expenditures report completed by the LSC Office ofInspectOT General ofTIG grants 06313,
07313,07315,08313,08314,08316 and 093l3.

The OIG audit team concluded that TIG grant assurances require that LSC rules, regulations,
guidelines and directive must be followed, and Part 1630 requires that salary and wages charged
directly to Corporation grants and contracts must be supported by personnel activity reports or
time records. The orG based its decision to question the personnel costs for all of CALS TIG
grants on this one single premise.

 However, for the TIG grants in question, LSC Management never provided CALS with
instructions showing that labor hours were to be used to distribute personnel expenses to its TIG
grants based on personnel activity reports or timekeeping. TIG grants were always treated
differently from other LSC grants. Payments were not made on a regular monthly basis as is true
of regular LSC grants, but were made upon the completion of Mi lestones set out in the grants.

We assigned one employee, Mr. Vince Morris, to handle the duties to meet the requirements of
the TIG as outlined in the Milestone reporting sections of the grants. At the time of issuance of
these TIG grants, the TIG milestones instructions did not mention anything about a requirement
that hours were to be kept or reported to meet mil estones and qualify for the payment offunds. In
contrast, in 2011 for the TIGs awarded in 2010, LSC Management explicitly included a special
instruction that required grantees to keep a record of hours spent on each TIG grant and include
these records in their reports. It was obvious to the LSC Management that they had not specified
that TIG grantees keep hours under the milestone instructions to receive payment from LSC for
individual TIGs issued during the time period being audited. Since the institution of the new

           Main Office: 303 Wesl CopilOt Ave"ue, Suile 200/ lillie Rock. Arkansas 72201
               Ph(JI1e. 50/-376-3423/ Fax: 50/-] 76-3664 / Toll Free.' 800·950-5R/7
     instruction, CALS has developed an activity report to account for employees' direct time spent on
     TIG and we are using the activity reports to charge salary and benefits to each individual TIG as
     per current LSC Management requirements.

     Since a large portion of the TIG milestones were for reimbursement of expenses for duties
     performed in previous payroll periods, Mr. Morris' salary and fringes were charged to the LSC
     Basic Field grant until the milestones for the TIG grants were meet and then his salary expense
     and fTinges were charged to that TIG.

      We did maintain time and attendance reports for Mr. Morris showing the total hours he worked
     in each payroll period. Since Mr. Morris was employed to perform the specific duties required
     under the TIG grant program and he spent his time personally performing those duties, we did
     not understand that he was required to maintain "personnel activity reports" as if he were
     working under different funding sources or different grants. We considered all the TIGs as one
     program.

    During the OIG's field visit, we provided the auditor with proof of Mr. Morris' salary by year,
    which the learn audited. In no year did the total salaries charged to the TIGs exceed Mr. Morris'
    salary. We also had proof of expenses incurred for fringe benefit that were provided to Mr.
    Morris. The 010 auditor chose not to audit these records. The salary charged to each TIG
    equaled the amount allowable when the TIG was granted and when the milestones were met.
    The OIG auditor confirmed this.

    In summary, our accounting for Mr. Morris' salary applied to TIG revenues was based on these
    assumptions. First, all funds used for paying Mr. Morris's salary came from one single funding
    source, the Legal Services Corporation. Second, the payment structure for the TIG grants was
    milestone driven, completely different fTom the way basic field grants funds were distributed ..
    Once those Milestones were met, we received payment from LSC and were able to apply the
    revenue to expenses as requested in the TIG application. Third, Mr. Morris was not employed as
    an attorney or paralegal and was not required to keep detailed time records under Part 1635.
    Fourth, Mr. Morris personally performed the duties and requirements that were directly related to
    the achievement of the objectives of the TIG grants.

    We hope that this response makes it clear that CALS had every intention to comply with the
    rcquirements set forth by LSC for the TIG grants in question. Since those TIG grants were
    administered based on a system of payments once CALS reached the Milestones in the grant and
    LSC gave no instructions to suggest that they were to be treated in the same way as basic field
    grants, we had no reason to believe that we were required to keep personnel activity reports or
    timc records for Mr. Morris. Once LSC began requiring those kinds ofrecords, CALS willingly
    complied.

    Yours truly,



~
            ~{l;Ji=
    Jean Turner Carter
\    ,    .     .
    Executive Duector

    jtc
